OFFICE OF INSPECTOR GENERAL


AUDIT OF
USAID/LEBANON’S
UNIVERSITY STUDENT
ASSISTANCE
PROGRAM I
AUDIT REPORT NO. 6-268-12-006-P
APRIL 30, 2012




CAIRO, EGYPT
Office of Inspector General




April 30, 2012

MEMORANDUM

TO:       	          USAID/Lebanon Mission Director, Jim Barnhart

FROM: 	              Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:	           Audit of USAID/Lebanon’s University Student Assistance Program I
                    (Report No. 6-268-12-006-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and have included those comments in their
entirety (without attachments) in Appendix II.

The report includes seven recommendations to USAID/Lebanon.                     After reviewing
USAID/Lebanon’s comments on the draft report, we determined that management decisions
have been reached on all recommendations, and final action has been taken on
Recommendations 1, 4, 5, and 6. The mission should provide the Audit Performance and
Compliance Division of USAID’s Office of the Chief Financial Officer with evidence of final action
to close all recommendations.

Thank you for the cooperation and courtesy extended to the audit team during this audit.




U.S. Agency for International Development
USAID Office Building
1/A Ahmed Kamel off El-Laselki St.
New Maadi
Cairo, Egypt
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     USAID/Lebanon Provided Scholarships Based on Established Criteria ................................. 4 


     USAID/Lebanon Did Not Develop Annual and Overall Program Performance Targets .......... 5 


     USAID/Lebanon Did Not Establish a Time Frame to Meet Scholarship Needs ...................... 7 


     USAID/Lebanon Did Not Advance Funds Appropriately ......................................................... 8 


     USAID/Lebanon Did Not Comply With Office of Management and Budget 

     Circular A-133 ....................................................................................................................... 10 


     USAID/Lebanon Did Not Monitor Advances for Timely Liquidation ...................................... 12 


Evaluation of Management Comments................................................................................... 14 


Appendix I—Scope and Methodology .................................................................................... 15 


Appendix II—Management Comments ................................................................................... 17 


Appendix III—Average Student Costs and Majors ................................................................ 21 


Appendix IV—Program Applicants and Selected Students .................................................. 22 




Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AOTR            agreement officer’s technical representative
CFR             Code of Federal Regulations
FY              fiscal year
HHS             Department of Health and Human Services
LAU             Lebanese American University
LOC             letter of credit
OFAC            Office of Foreign Assets Control
OIG             Office of Inspector General
OMB             Office of Management and Budget
RIG             Regional Inspector General
USAP I          University Student Assistance Program I
SUMMARY OF RESULTS 

Promoting education is essential to improving economic opportunities for youth in Lebanon and
mitigating extremism. However, in March 2010, the nation’s Ministry of Education and Higher
Education reported that math and science test scores for Lebanese students lagged behind
those of their peers in other countries. In addition, students enrolled in public schools were not
performing as well as those in private schools—and therefore had fewer employment
opportunities upon graduation.

To address this disparity, in September 2010 USAID/Lebanon awarded about $13.5 million
under the University Student Assistance Program I (USAP I) to Haigazian University and
Lebanese American University (LAU). According to the 7-year program, they were to use the
funds to give full, need-based scholarships to promising Lebanese public high school students.
Haigazian received $6.6 million, and LAU got $6.9 million. As of January 2012, USAID/Lebanon
had obligated the full grant amounts and disbursed about $1 million. To assist with program
management, USAID/Egypt’s regional procurement and financial management offices provide
support services to USAID/Lebanon.




USAID gives promising Lebanese high school students full scholarships to Lebanese
American University, left, and Haigazian University. (Photo by Office of Inspector General,
January/February 2012)

USAP I undergraduate scholarships give students tuition, books, housing, and a living
allowance for the duration of their studies if they maintain minimum grades and meet
participation requirements. Scholarships were awarded for study in a variety of fields, including
engineering, business, computer science, nursing, and education, at an average cost of about
$10,530 per student per semester. Appendix III provides additional information on the average
cost per student and students’ majors. As part of USAP I, students receive academic support


                                                                                                1
and are expected to participate in leadership and career development activities during their
education.

The Regional Inspector General (RIG)/Cairo conducted this audit as part of the its fiscal year
(FY) 2012 audit plan to determine whether USAID/Lebanon’s USAP I was achieving its goal to
provide scholarships to undergraduate students at LAU and Haigazian University based on
established criteria.

We found that USAP I had done so (page 4). However, despite the program’s achievements,
we found that several areas need improvement to continue the program’s success. Specifically,
the audit found that the mission:

	 Did not develop annual and overall program performance targets (page 5).

	 Did not establish a time frame to meet scholarship needs (page 7).

	 Did not advance funds appropriately (page 8).

	 Did not comply with Office of Management and Budget (OMB) Circular A-133, “Audits of
   States, Local Governments, and Non-Profit Organizations” (page 10).

	 Did not monitor advances for timely liquidation (page 12).

To address these findings, we recommend that USAID/Lebanon:

1. 	 Develop and document LAU’s USAP I monitoring and evaluation plan with annual and
     overall performance indicators and targets to measure program results (page 6).

2. 	 Conduct a written review of USAP I to determine whether the current program’s duration
     is appropriate based on the program activities and then implement the actions identified,
     as appropriate (page 8).

3. 	In coordination with USAID/Egypt’s regional procurement and financial management
    offices, do a written assessment of Haigazian University’s financial systems to determine
    the appropriate method for disbursing funds (page 10).

4. 	In coordination with USAID/Egypt’s regional procurement and financial management
    offices, implement procedures to document timely submission of implementers’ OMB
    Circular A-133 audit reports to the Federal Audit Clearinghouse for appropriate review
    (page 11).

5. 	 Give partners written reminders of the requirement to conduct and submit OMB Circular
     A-133 audit reports to the Federal Audit Clearinghouse (page 11).

6. 	Make a written determination on whether Haigazian University should refund the
    unsupported costs of $2,400 and recover those amounts determined to be unallowable
    (page 13).




                                                                                                 2
7. 	 Implement procedures to obtain written confirmation from implementers that advances
     are liquidated in a timely manner (page 13).

Detailed findings appear in the following section, and the audit’s scope and methodology are
described in Appendix I. Appendix II contains management comments in their entirety, and our
evaluation of management comments is included on page 14 of the report.




                                                                                           3
AUDIT FINDINGS 

USAID/Lebanon Provided
Scholarships Based on
Established Criteria
According to USAID/Lebanon’s USAP I grants to Haigazian University and LAU,1 the schools
were charged with recruiting, screening, and selecting Lebanese students who had financial
need and academic merit for scholarships. To meet requirements of Executive Order 13224,
“Blocking Property and Prohibiting Transactions With Persons Who Commit, Threaten to
Commit, or Support Terrorism,” the schools also had to verify that scholarship recipients and
their parents did not appear on the Specially Designated Nationals List, issued by the U.S.
Treasury Office of Foreign Assets Control (OFAC), or the United Nations’ Al-Qaida Sanctions
List. In addition, students had to certify that they did not knowingly provide material support or
resources to any individual or entity that commits, attempts to commit, advocates, facilitates, or
participates in terrorist acts.

The universities received 749 Lebanese applications2 and awarded USAP I scholarships to 117
of them—65 at Haigazian and 52 at LAU. Scholarships went to 80 women and 37 men from
25 of 26 Lebanese districts;3 the total amount awarded was about $1.2 million for the fall 2011
semester. Appendix IV provides more information on the distribution of applicants and selected
students.

Haigazian and LAU officials recruited USAP I students with brochures and flyers and by visiting
public schools throughout Lebanon. They also worked with another nonprofit entity providing
services to Lebanese secondary school students to identify potential candidates.

The officials screened applicants based on average secondary school grades, Lebanese
baccalaureate or high school completion exams, standardized aptitude tests, English language
exams, interviews, financial need, and citizenship, as shown in Table 1 on page 5. The
minimum English exam scores of at least 450 for Haigazian and 400 for LAU indicated that very
weak English skills were acceptable because, the officials said, students would study English
while in school.4

The schools did not find the students and their parents on the OFAC and United Nations’ lists.
The students also signed the USAID antiterrorism certification.




1
  The grants are 268-G-00-10-00054-00 and 268-G-00-10-00053-00, respectively. 

2
  Haigazian received 363 applications, and LAU received 386. These numbers do not reflect the total 

number of applicants because some applied for USAP I scholarships at both universities. 

3
  The officials did not find a viable applicant in the northern district of Hermel.

4
  The maximum English exam score for both universities is 800.



                                                                                                  4
                         Table 1. Selection Criteria for USAP I Applicants

              Criteria                     Haigazian                           LAU
                                Grade average of at least
      Average secondary                                         Grade average of at least 11.55
                                70 percent for Grades 10 and
      school grades                                             (of 20) for Grades 10 through 12
                                11
      Lebanese
                                Score of 12 or higher           Score of 12 or higher
      baccalaureate
                                                                Score of at least 400 for all
      Entrance examination/                                     majors except engineering/
                                             N/A
      SAT                                                       score of at least 450 for
                                                                engineering
      Test of English as a
      foreign                                                   University test score of at least
                                Test score of at least 450
      language/university                                       400
      English exam
      Applicant interview       Score from 0 to 2+              Score from 0 to 100 percent
                                Financial data review and       Financial data review and
      Financial need
                                financial aid interview         financial aid interview

      Citizenship               Lebanese                        Lebanese

     Source: RIG/Cairo analysis of implementer criteria.

Haigazian and LAU used established criteria appropriately to select USAP I scholarship
recipients. Both implemented a screening and selection process that identified students of high
academic merit and financial need, according to the program’s requirements. Consequently, we
are not making any recommendations at this time.

USAID/Lebanon Did Not
Develop Annual and Overall
Program Performance Targets
Automated Directives System (ADS) 203.3.4.5, “Setting Performance Baselines and Targets,”
states that targets should be ambitious but realistic and may be set for both the duration of the
project and for the interim years.6 According to USAID’s Performance and Monitoring
Evaluation TIPS No. 8, “Baselines and Targets,” targets establish clear expectations for
implementers, help determine a program’s progress and “motivate individuals involved in a
program to do their best to ensure the targets are met.” Furthermore, USAID’s Project Design
Guidance, issued December 2011, states that defining targets is essential to providing
information on project performance and making sure that programs are on track.

LAU has not established targets that could help the school measure progress over the course of
the scholarship program annually or overall. While the Year 1 monitoring and evaluation plan
included a column for indicators’ overall targets, none were provided. The Year 2 plan did not
refer to annual targets for 6 of 42 indicators (14 percent) or any overall program targets. For

5
  A score of 11.5 is considered a passing grade in a system in which 20 is considered excellent.
6
  ADS 203, “Assessing and Learning,” was revised on February 10, 2012. The citations in this report refer
to the previous version of ADS, in effect at the time of the audit.


                                                                                                       5
five of those six, the plan stated that a target could not be estimated for the indicator. Table 2
gives more information on these indicators.

                     Table 2. Year 2 Monitoring and Evaluation Indicators 

                                       Without Targets 


                         Indicator	                      Rationale Behind Indicator
              Number of scholars assuming 	        This cannot be estimated this year as
              leadership roles in their clubs      scholars will have just started in clubs.
              Number of scholars failing their 	   We cannot estimate this at the moment,
              courses per semester	                yet we think that very few scholars, if
                                                   any, will fail courses.
              Number of scholars withdrawing       We cannot estimate this at the moment,
              from their courses per semester      yet we think that very few scholars, if
                                                   any, will withdraw from courses.
              Average percentage of 	              None provided.
              improvement of scholars
              academically as reported by
              advisors in their reports
              Number of scholars referred to 	     We cannot estimate the number of
              counselors	                          scholars that will be referred to
                                                   counselors.
              Number of tutors assigned            We cannot estimate how many scholars
                                                   may need tutors.
             Source: LAU monitoring and evaluation documents.

Annual and overall program indicators with targets would help USAID and the schools measure
the program’s success. LAU officials and USAP I’s agreement officer’s technical representative
(AOTR)7 said they did not identify targets for some Year 2 indicators related to failing or
withdrawing from courses because officials hoped that no students would fail or withdraw from
courses. However, officials recognize that this may not be the case. According to the AOTR,
the program’s overarching goal is to graduate at least 90 percent of USAP I students in the
allowable time frame.8 However, neither Haigazian nor LAU had an indicator related to this goal
in their monitoring and evaluation plans.

Without clear, realistic annual and overall program targets, neither the implementer nor
USAID/Lebanon can be assured that the program is on track to achieve short- and long-term
success. Developing these targets would increase the likelihood of identifying problem areas
early and determining appropriate courses of corrective action. While USAID/Lebanon
communicated with LAU about expected program results, the lack of defined targets limits the
school’s accountability for poor program results. Consequently, we are making the following
recommendation.

    Recommendation 1. We recommend that USAID/Lebanon develop and document
    Lebanese American University’s University Student Assistance Program I monitoring

7
  As of March 12, 2012, USAID revised ADS 303 and changed the term “agreement officer’s technical
representative” (AOTR) to “agreement officer’s representative” to align with changes in the Federal
Acquisition Regulation. Because audit fieldwork was done before the change, this report uses AOTR.
8
  At both universities, the maximum time frame to graduate is 5 years for engineering students (a 4-year
program) requiring 1 year of intensive English studies. Other majors have 4 years, including the year of
intensive English studies.


                                                                                                      6
    and evaluation plan annual and overall performance indicators and targets to measure
    program results.

USAID/Lebanon Did Not
Establish a Time Frame
to Meet Scholarship Needs
ADS 202.3.7, “Managing USAID Program Resources and Requesting Funds,” states that
USAID missions are responsible for managing Agency resources to ensure results are achieved
in a cost-effective, timely manner. A program should only last as long as necessary to
accomplish program goals. In addition, several Agency directives address the duration of
assistance awards. ADS 201.3.11.2, “Pre-Obligation Requirements,” states that planning for an
award must include a budget that provides an estimate of the cost of the assistance to the U.S.
Government for the duration of activities under the award. Furthermore, ADS 303.3.3, “Type
and Length of Assistance Instrument,” states that the development objective team makes a
preliminary determination on the duration and type of assistance instrument.9

USAID/Lebanon’s USAP I grant is currently scheduled to end on August 31, 2017—almost
7 years from its start date of September 29, 2010. However, the last USAP I student is
projected to graduate by the end of the spring semester of 2016 (June 2016), about 14 months
before the grant’s end date. Although the AOTR did not know why the program was extended
beyond student graduation dates, the original program planning documents in USAID/Egypt’s
Education and Training Office state that the mission anticipated students would graduate in
approximately 5 academic years. Equally important, the technical evaluation committee panel
responsible for reviewing grant applications also assumed that the additional academic year
would enable some of the students—who might not be able to graduate in 5 years because of
probation or suspension—to finish their studies. University officials were not able to provide
information on why the program’s end date extends more than 1 year beyond the activity
completion date. One Haigazian official said officials there assumed the extension was added
to finalize the program and to follow up with USAP I graduates.

USAP I exceeded the required time frame because it was based on the USAID/Egypt Education
and Training Office’s assumption that the schools would need 1 year for the recruiting and
selection process and the students would need up to 6 years to complete their studies. This
assumption took into account that some students would need up to 1 year of intensive English,
but also relied on the belief that some students would need up to 5 years of study afterward,
depending on their major.

However, according to officials from USAID/Lebanon and the universities, students coming to
Haigazian and LAU from Lebanese public schools (and most Lebanese private schools) actually
start their university studies at the sophomore level, not the freshman level. In other words, the
last year of Lebanese secondary school is considered to take the place of the freshman year of
college. So the design of USAP I that allowed for up to 5 years of study, rather than 4 years,
was incorrect for the two selected implementers.


9
 ADS 303, “Grants and Cooperative Agreements to Non-Governmental Organizations,” was revised in
March 2012. The citations in this report refer to the previous version of ADS, in effect at the time of the
audit.



                                                                                                         7
USAID/Egypt procurement office staff members—who help USAID/Lebanon in procurement
processes—said USAID/Lebanon officials did not notify them that USAP I students would finish
their studies in 2016. The procurement officials also said LAU has budgeted for activities during
the final year of the program, after students were expected to have graduated. According to the
proposed 2016/17 budget of about $209,000, university officials have plans to use 95 percent of
the budget ($199,963) for personnel, supplies, and audit fees and only 5 percent ($9,500) for
program activities and USAP I alumni support. USAID/Lebanon’s USAP I AOTR, USAID/Egypt
procurement officials, and the schools all noted that the additional program time gives students
who have difficulty completing academic requirements an extra year to do so.

Committing funds and USAID/Lebanon employees beyond the time actually needed to ensure
program success is an ineffective use of Agency resources. USAID/Lebanon has a fiduciary
responsibility to be a good steward and manager of public funds and must ensure that funds are
used in a cost-effective, appropriate manner. While some time may be needed for closeout
procedures, missions should exercise due professional care to make sure funding does not
exceed required needs. Therefore, we make the following recommendation.

   Recommendation 2. We recommend that USAID/Lebanon conduct a written review of
   the University Student Assistance Program I to determine if the current program duration
   is appropriate based on the program activities and implement the actions identified, as
   appropriate.

USAID/Lebanon Did Not Advance
Funds Appropriately
USAID regulations provide guidance for managing assistance awards and program funding
mechanisms in ADS 303, “Grants and Cooperative Agreements to Non-Governmental
Organizations,” and 636, “Program Funded Advances.”

In accordance with ADS 303.3.9, “Pre-Award Responsibility Determination,” the agreement
officer determines whether an implementer has the ability to carry out an award according to the
principles established by USAID and OMB. Moreover, ADS 303.3.9.1, “Pre-Award Surveys,”
requires an agreement officer who has knowledge of deficiencies in the applicant’s A-133 (or
equivalent) audit to conduct a detailed analysis to determine if the applicant’s accounting,
record-keeping, and overall financial management systems meet the applicable standards in
Title 22 of the Code of Federal Regulations (CFR), Part 226, “Administration of Assistance
Awards to U.S. Non-Governmental Organizations,” Section 226.21, “Standards for financial
management systems.” These standards state that a recipient’s financial management systems
shall have:

	 Accurate, current, and complete disclosure of the financial results of each federally
   sponsored project or program in accordance with reporting requirements.

	 Records that identify adequately the source and application of funds for federally sponsored
   activities.

	 Effective control over and accountability for all funds, property, and other assets.

To fund some of its programs, USAID gives advances to recipients of contracts and assistance
awards to ensure they have enough money to perform work under their agreements. ADS 636,


                                                                                               8
“Program Funded Advances,” identifies mechanisms that the agreement officer may use to
provide advance funding to recipients, including the use of a letter of credit (LOC).10 ADS
636.3.2.1, “Agency Issued Letter of Credit (LOC),” states that while an award instrument may
authorize using an LOC, the LOC itself is a separate agreement between the recipient and the
Agency. In addition, a recipient must be eligible to use this method, and a mission controller is
responsible for determining whether a recipient’s financial systems meet the requirements for
making advances from overseas missions. When a recipient does not have an acceptable
financial management system, mission officials should make payments only on an incurred cost
reimbursement basis, not by using advances. USAID/Lebanon relies on USAID/Egypt’s
regional procurement and financial management offices to provide support services that assist
with program management.

According to ADS 636.3.2.1, the general criteria for using LOCs are:

	 The amount of funding equals or exceeds $120,000 per year.

	 There is a continuing relationship with the organization for at least 1 year.

	 The organization’s financial management system meets federal standards for fund control
   and accountability.

Although several audit reports and mission management reviews have shown that Haigazian
University does not have a sound financial management system, USAID/Egypt’s regional
procurement office did not modify the USAP I grant agreement to discontinue advance
payments using an LOC.             USAID/Lebanon notified USAID/Egypt’s regional financial
management office that Haigazian did not have an acceptable financial management system in
place in August 2009 during another award. However, the regional financial management office
did not pursue this matter further that month because the A-133 audit conducted for FY 2008
noted no findings and USAID/Lebanon did not anticipate extending the award at that time
beyond September 2009. To modify the USAP I award, the agreement officer in USAID/Egypt’s
regional procurement office could have asked USAID/Egypt’s regional financial management
office to conduct a financial systems review.

When USAID/Egypt made the USAP I award in September 2010, an agreement officer in the
regional procurement office there approved a direct payment method that would have required
Haigazian to submit receipts prior to reimbursement. According to that agreement officer, the
mission did not conduct a preaward survey11 for the school because it had received USAID
funds before and provided an A-133 audit conducted for FY 2008 that did not disclose
significant deficiencies. During September 2011, a second USAID/Egypt agreement officer
approved an LOC payment method for Haigazian University because the school received more
than $120,000 in 1 year and had a continuing relationship with the mission; that officer did not
determine whether Haigazian’s financial management system met federal standards.


10
   A letter of credit is a financial instrument certified by USAID that authorizes a recipient to request an
advance payment. Using an automated U. S. Department of Treasury system, a USAID implementer
sends the request to the U.S. Department of Health and Human Services (HHS), USAID’s servicing
agent.
11
   A preaward survey includes analyzing a recipient’s financial management, internal controls, property
management, and procurement systems to determine if the recipient has the ability to achieve program
objectives.


                                                                                                          9
In February 2011, Haigazian’s independent external auditor issued an audit report of the
university’s FYs 2009 and 2010 financial statements. The auditor found financial system
weaknesses with the university’s fixed asset register and lack of supporting documentation for
donations from third parties. At the request of USAID/Lebanon, USAID/Egypt financial
management staff members conducted a financial systems review of Haigazian University on
December 2, 2011, and identified three critical issues regarding financial controls and measures
for accountability. Haigazian lacked (1) a proper physical inventory of nonexpendable property,
(2) time and attendance reports, and (3) applicable policies and procedures for requisition and
procurement.

Although the USAID/Egypt regional financial management office’s controller had primary
responsibility for determining whether an implementer’s financial systems met requirements for
making advances from USAID/Lebanon, regional procurement officials—who were responsible
for modifying the payment methods in the Lebanon agreement—did not ask for a review of
Haigazian’s financial systems because they believed that the LOC’s servicing agent (HHS) was
responsible for assessing an implementer’s financial systems. The procurement officials said
the USAP I agreement officer had not taken any action to modify the grant agreement between
USAID/Lebanon and Haigazian, and was waiting for USAID/Egypt’s regional controller to
determine whether the university’s financial systems met federal standards for fund control and
accountability. Consequently, USAID/Lebanon cannot be assured that Haigazian’s financial
management systems comply with federal requirements and accounting standards.

Whenever there are unresolved questions regarding the adequacy of partners’ financial
systems, USAID missions should take necessary precautions and ask financial management
offices to review the systems. Compliance with these standards requires that financial systems
provide reliable, timely information necessary for managers. Lack of a sound financial
management system increases the risk that Agency funds may not be used for allowable
program purposes. To address these issues, we make the following recommendation.

     Recommendation 3. We recommend that USAID/Lebanon, in coordination with
     USAID/Egypt’s regional procurement and financial management offices, do a written
     assessment of Haigazian University’s financial systems to determine, in writing, the
     appropriate method for disbursing funds.

USAID/Lebanon Did Not Comply
With Office of Management and
Budget Circular A-133
Federal guidelines and Agency regulations provide guidance for conducting audits of federally
awarded funds and identifying staff responsible for this oversight. Within USAID, the Office of
Inspector General (OIG) and specific mission staff members oversee audits. ADS 591.3.1.1,
“U.S. Nonprofit Organizations,” states that U.S. nonprofit organizations that disburse more than
$500,000 in federal awards within their fiscal year must have a single or program-specific
financial audit conducted for that year in accordance with OMB Circular A-133. The directive
also requires the recipients to “submit OMB Circular A-133 audit reports to the Federal Audit
Clearinghouse within the earlier of 30 days after receipt of the auditor’s report or 9 months after
the end of the period audited.”12 Moreover, after these reports are entered into the

12
  According to its Web site, http://harvester.census.gov/sac, the Federal Audit Clearinghouse operates
on behalf of OMB to (1) distribute audit information to federal agencies and the public, (2) support OMB


                                                                                                     10
clearinghouse, OIG conducts quality control reviews of selected audits to ensure that they were
performed in accordance with OMB Circular A-133. OIG then notifies the responsible mission,
recipient, and nonfederal auditor when an audit does not meet the required standards, as
documented in ADS 591.3.10, “Review and Issuance of Audit Reports.”

OMB Circular No. A-133, revised June 26, 2007, establishes standards for ensuring consistency
and uniformity among federal agencies for the audit of nonprofit organizations that spend
federal awards. Section 200, “Audit Requirements,” states that nonfederal entities that expend
$500,000 or more in federal awards in a year must have a single or program-specific financial
audit13 conducted. At the mission level, the AOTR designation letter requires the AOTR to verify
that an implementer adheres to the award’s terms and conditions, which include verifying that A-
133 audits are conducted and submitted to the clearinghouse.

LAU and Haigazian are U.S. nonprofit organizations that received more than $500,000 in
federal awards for FY 2010 and conducted A-133 audits. However, neither of them submitted
the audit reports to the Federal Audit Clearinghouse for management reviews.

The audit report on Haigazian University’s program activities did not meet OMB Circular A-133
standards. Its partial FYs 2008, 2009, and 2010 single audit reports did not conform to the
circular standards to describe the scope of testing of internal control—such as physical control
over vulnerable assets and accurate, timely recording of transactions and events—nor did they
include the results of the tests as described in the scope. In a September 2009 e-mail
Haigazian University’s comptroller sent to a USAID/Lebanon employee, he said the university’s
A-133 external auditors believed that the audit reports conformed to OMB standards.

The AOTR and officials from both universities said they were not aware of the OMB requirement
to submit audit reports to the Federal Audit Clearinghouse.

Monitoring and oversight exercised by federal audit agencies could identify weaknesses in
internal controls that could increase risk of federal awards being used inappropriately. Not
submitting audit reports to the clearinghouse for review by OIG’s Financial Audits Division limits
the Agency’s ability to find problems with implementers’ internal controls; management’s
adherence to applicable laws, regulations, and grant provisions; and the competence and
experience of personnel who administer the federal programs. Therefore, this audit makes the
following recommendations.

    Recommendation 4. We recommend that USAID/Lebanon, in coordination with
    USAID/Egypt’s regional procurement and financial management offices, implement
    procedures to document timely submission of its implementers’ Office of Management
    and Budget Circular A-133 audit reports to the Federal Audit Clearinghouse for
    appropriate review.

    Recommendation 5.          We recommend that USAID/Lebanon give partners written
    reminders of the requirement to conduct and submit Office of Management and Budget
    Circular A-133 audit reports to the Federal Audit Clearinghouse.


oversight and assessment of federal award audit requirements, (3) assist federal cognizant and oversight
agencies in obtaining OMB Circular A-133 data and reporting packages, and (4) help auditors and
auditees minimize the reporting burden of complying with Circular A-133.
13
   A single audit is one that includes the entity’s financial statements and the funds it has received through
federal awards.


                                                                                                           11
USAID/Lebanon Did Not Monitor
Advances for Timely Liquidation
Agency regulations exist to make sure program funds that exceed immediate disbursement
needs are returned to the Agency. ADS 636.3.3.1, “Amount Limitations,” states that advances
are limited to the minimum amount needed for immediate disbursing needs and must be repaid
in 7 days or less if made under an LOC.                In addition, ADS 636.3.3.2, “Excessive
Advances/Periodic Review of Requirements,” states that mission controllers must be certain
that requests for program advances are reasonable, not worth more than the recipient’s
immediate disbursement needs, and that any excess funds are refunded to USAID. Liquidation
of the advance should be within 7 days when the advance exceeds $10,000 and within 30 days
when the amount is less than $10,000. Moreover, the guidance requires mission controllers to
make sure outstanding advances for recipients are monitored on an ongoing basis and
reviewed to confirm that funds advanced are no more than necessary. Furthermore, the AOTR
designation letter makes the AOTR responsible for reviewing advance payments to monitor
financial progress to be sure the level of funding advanced is the minimum necessary.

For USAP I, the mission gave Haigazian University more funds than it needed, and LAU did not
liquidate an advance in a timely manner.

Using an LOC, Haigazian officials requested and received $354,890 on October 26, 2011,
which included $326,310 to cover student tuition and fees for the fall 2011 semester. On
January 23, 2012, when preparing support documents for this audit, the university program
manager discovered that USAP I had incorrectly charged $2,400 for dormitory charges for a
student who did not reside on campus. Because the excess payment of $2,400 was made on
October 26, 2011, the advance should have been spent by November 26, 2011 (30 days after
received by the implementer).

According to the university’s comptroller, members of the billing staff did not correctly reconcile
the list of USAP I students housed on campus with their semester billing statements, causing an
inaccurate payment request. Additionally, the AOTR stated that the excess payment was not
identified during a review of periodic advances because the university did not provide accurate
supporting documents.

LAU got an advance of $380,000 on October 7, 2011, to pay USAP I student tuition and fees for
the fall 2011 semester. However, the school did not pay the students’ tuition and fees until
November 1, 2011, and should have spent this advance by October 14, 2011, or within 7 days
of receipt.

One LAU financial management official said this delay occurred because the university posts
transactions in its financial system on the first of the month; although the USAP I student tuition
and fees were due on October 1, 2011, and received on October 7, 2011, outstanding balances
would not be paid until November 1, 2011. The university official also said the request for an
advance occurred after the first of the month because the exact amount of the students’ tuition
and fees was not known at that time.

Although LAU applied the excess funds to existing allowable program costs and Haigazian
plans to apply these funds to future program costs, they received $382,400 in excess of
immediate disbursement needs in October. As financial stewards of government funds, USAID
and its implementers should review requests for program advances to verify that they do not



                                                                                                12
exceed immediate needs and are properly supported. Consequently, these program funds
could not be put to better use. To address these concerns, this audit makes the following
recommendations.

   Recommendation 6.         We recommend that USAID/Lebanon make a written
   determination on whether Haigazian University should refund the unsupported costs of
   $2,400 and recover those amounts determined to be unallowable.

   Recommendation 7. We recommend that USAID/Lebanon implement procedures to
   obtain written confirmation from implementers that advances are liquidated in a timely
   manner.




                                                                                            13
EVALUATION OF MANAGEMENT
COMMENTS
In response to our draft report, USAID/Lebanon officials generally agreed with all seven
recommendations.        As a result, management decisions have been reached on all
recommendations, and final action was taken on Recommendations 1, 4, 5, and 6. The mission
should provide the Audit Performance and Compliance Division of USAID’s Office of the Chief
Financial Officer with evidence of final action to close all recommendations.

Recommendation 1. USAID/Lebanon officials approved a revised performance management
plan for the LAU USAP I award with overall performance indicators and targets to measure
program results (including targets for the six indicators noted in the audit report) on April 9,
2012. Accordingly, a management decision has been reached and final action taken on this
recommendation.

Recommendation 2. USAID/Lebanon officials submitted recommendations to USAID/Egypt’s
regional procurement office to reduce Haigazian’s USAP I grant duration from August 2017 to
February 2017 and maintain the duration for LAU’s USAP I grant on April 9, 2012. The target
date for regional procurement officials to make a decision is June 30, 2012. Therefore, a
management decision has been reached on this recommendation.

Recommendation 3. USAID/Lebanon officials and USAID/Egypt’s regional procurement and
financial management offices agreed to conduct a review of Haigazian’s internal controls and
determine the appropriate payment method for disbursing funds by June 30, 2012. Accordingly,
a management decision has been reached on this recommendation.

Recommendation 4. USAID/Lebanon officials established a procedure on April 5, 2012, for all
implementers to submit their OMB Circular A-133 audit reports to the mission, USAID’s Office of
Acquisition and Assistance, and the Federal Audit Clearinghouse. Therefore, a management
decision has been reached and final action taken on this recommendation.

Recommendation 5. USAID/Lebanon officials sent an e-mail on April 5, 2012, to remind
implementers of the requirement to conduct and submit OMB Circular A-133 audit reports to the
Federal Audit Clearinghouse. Accordingly, a management decision has been reached and final
action taken on this recommendation.

Recommendation 6. USAID/Lebanon officials determined on April 11, 2012, that unsupported
costs of $2,400 were used for allowable program expenditures. Accordingly, a management
decision has been reached and final action taken on this recommendation.

Recommendation 7. USAID/Lebanon officials agree with this recommendation and plan to
implement procedures by April 30, 2012, to obtain written confirmation from implementers that
advances are liquidated in a timely manner. Therefore, a management decision has been
reached on this recommendation.




                                                                                             14
                                                                                   Appendix I



SCOPE AND METHODOLOGY
Scope
The RIG/Cairo conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The audit objective was to determine whether USAID/Lebanon was achieving USAP I’s goal of
providing scholarships to students at LAU and Haigazian University based on established
criteria. Audit fieldwork was conducted at USAID/Lebanon from January 30 to February 8,
2012. The audit covered the period from September 29, 2010, to January 18, 2012. The initial
amount awarded for two USAP I grants under agreement numbers 268-G-00-10-00054-00 and
268-G-00-10-00053-00 was approximately $13.5 million for the 7-year period from
September 29, 2010, to August 31, 2017. Haigazian was awarded $6.6 million, while LAU got
$6.9 million. As of January 18, 2012, USAID/Lebanon had obligated approximately $13.5
million and disbursed about $1 million. The audit team tested approximately $949,000, or
91 percent, of that disbursement.

In planning and performing the audit, we assessed management controls related to
documentation and data verification, reporting, supervisory and management review at the
functional and activity level, physical control over vulnerable assets, and establishment and
review of performance measures and indicators. The controls we assessed included verifying
reported data to source documents, reviewing authorizing approval of agreements and
modifications, and determining appropriate application of established criteria. The audit team
also reviewed the management controls in place to monitor program activities through
interviews with the mission and university employees, observations, and review of reports and
files that the mission provided. We obtained an understanding of and evaluated the following:
USAID/Lebanon’s USAP I grant agreements with Haigazian and LAU; subsequent modifications
to the grants; the annual work plans prepared by both universities; the oversight performed by
the AOTR; performance measures; and data verifications. We also considered information
provided in the mission’s FY 2011 operational plan; FY 2011 Federal Managers’ Financial
Integrity Act assessment; 2009-2013 country strategy; and for the education sector results
framework.

We conducted the audit at USAID/Lebanon in Beirut and visited the partners’ campuses in
Beirut and Byblos.

Methodology
To answer the audit objective, we met with personnel from USAID/Lebanon and from the
implementers. We also met with 13 students who were USAP I beneficiaries. We reviewed
documentation provided by USAID/Lebanon and both universities, including the grants and
subsequent modifications, annual work plans, monitoring and evaluation plan reports, and site
visit reports.




                                                                                           15
                                                                                       Appendix I


To assess whether the program’s goal of awarding scholarships to students of high academic
merit and financial need was achieved, we identified a sample of USAP I applicants at each
university—67 at Haigazian and 67 at LAU. We also selected a statistical subsample of
students selected for the USAP I scholarship program at both universities. With the assumption
of 5 percent error, a variation of plus or minus 4 percent, and a 95 percent confidence level, the
statistical sample of selected students for Haigazian was 37, while the sample for LAU was 32.
The information from each of these samples can be generalized to the full universe of selected
students. However, the sample does not allow us to generalize to the full universe of applicants
who were not chosen. We tested the sample populations to confirm that the student selection
process was implemented appropriately and to validate results reported to USAID/Lebanon. To
do this, we (1) compared the actual selection steps and process implemented with the required
processes, (2) traced mission-reported results to the schools’ documented results and records,
and (3) interviewed mission personnel, university staff members, and students.

To test the appropriateness of disbursements, we got lists of transactions for Haigazian and
LAU as of January 18, 2012, and judgmentally selected all transactions worth more than
$10,000. For the selected transactions, we matched the amounts to supporting documents
such as invoices, payment requests, bank deposit slips, student statement of fees, and salary
agreements.

Furthermore, we reviewed applicable laws and regulations and USAID policies and procedures
regarding USAID/Lebanon’s USAP I, including the grant and modifications; the U.S.
Government Accountability Office’s Standards for Internal Control in the Federal Government;
ADS Chapters 201, 202, 203, 253, 303, 591, 620, 621, and 636; OMB Circular A-133; and 22
CFR Part 226.




                                                                                               16
                                                                                     Appendix II



MANAGEMENT COMMENTS 





                                                                   April 12, 2012

MEMORANDUM

To:                Regional Inspector General/Cairo, Jacqueline Bell

From:              USAID/Lebanon Mission Director, Dr. Jim Barnhart - /S/

Subject:           Audit of USAID/Lebanon’s University Student Assistance Program I
                   (Report No. 6-268-12-00X-P) dated March 28, 2012

USAID/Lebanon is in general agreement with all of RIG recommendations. For
recommendations Nos. 2 and 3, the Mission requested a determination from the concerned
parties (OAA and FM); for recommendation No. 7, the Mission will take corrective action by April
20th; for all other recommendations, the Mission has taken the corrective actions.

Recommendation No. 1: We recommend that USAID/Lebanon develop and document
Lebanese American University’s University Student Assistance Program I monitoring and
evaluation plan performance indicators and targets and life-of-project performance indicators
and targets to measure program results.

Mission Response: On April 9, 2012 the Agreement Officer Representative (AOR) approved a
revised Performance Management Plan (PMP) of the Lebanese American University (LAU)
University Student Assistance Program to include life-of-project performance indicators and
targets to measure program results (Attachments A and B). Four new indicators, graduation,
risk of failure, alumni membership, and job assistance were added to the PMP to track the
performance and measure program results. Also, targets for the six indicators highlighted in the
audit report were added.

Based on the above, the Mission believes a management decision has been reached on this
audit recommendation and requests closure of Audit Recommendation No. 1 upon report
issuance.

Recommendation No. 2: We recommend that USAID/Lebanon document, in writing, a review
of the University Student Assistance Program I to determine if the current project duration is
appropriate based on the program activities and implement the actions identified, as
appropriate.



                                                                                                17
                                                                                     Appendix II



Mission Response: On February 22, 2012 USAID/Lebanon initiated the process of
determining the appropriate project duration with both Haigazian and Lebanese American
University (LAU). On March 15, 2012 Haigazian University submitted their rationale for
shortening the program to the end of February 2017 (Attachment C). LAU submitted their
justification to maintain the program duration on April 5, 2012 (Attachment D). The AOR sent his
recommendations to OAA on April 9 to seek the Agreement Officer’s (AO) decision. The AOR
discussed the recommendation with the AO on April 10 (Attachment E). It is expected that this
finding be closed by June 30, 2012 pending the official amendment of the agreements expiry
dates and issuing a co-signed official modification.

Target date for completion: June 30, 2012

Recommendation No. 3: We recommend that USAID/Lebanon in coordination with
USAID/Egypt’s Regional Procurement and Financial Management Offices, assess Haigazian
University’s financial systems to determine, in writing, the appropriate payment method for
disbursing funds.

Mission Response: On February 22, 2012 USAID/Lebanon requested that Haigazian
University undertake corrective actions to address the internal control weaknesses identified by
FM/Cairo. On February 24, Haigazian University submitted a corrective action plan with
implementation dates (Attachment F). Corrective actions addressing potential gaps related to
Federal funds such as time and attendance related to cost share will be in place by April 15,
2012. It is expected that by the end of November, 2012 internal controls applicable to the entire
university will be improved. A second internal control review will be performed by FM/Cairo in
June 2012 to assess the improvements made and the corrective actions completed (Attachment
G). Based upon the assessment recommendations USAID/Lebanon in coordination with
USAID/Egypt’s Regional Procurement and Financial Management Offices will determine the
appropriate payment method for disbursing funds to Haigazian University.

Target date for completion: June 30, 2012.

Recommendation No. 4: We recommend that USAID/Lebanon develop and implement
procedures to document timely submission of its implementers’ OMB Circular A-133 audit
reports to the Federal Audit Clearinghouse for appropriate review.

Mission Response: On February 21, 2012, USAID/Lebanon notified all implementers of the
scholarship programs to comply with OMB-A-133 terms related to the Federal Audit Clearing
House. Furthermore, USAID requested that implementing partners complete the upload of the
reports by end of March (Attachment H). On April 5, 2012, the remaining implementing partners
were asked to adhere to the timely submission requirement of the A-133 audit report to the
Mission, OAA, and the Federal Clearing House along with a copy of the upload (Attachment I).

Based on the above, the Mission believes a management decision has been reached on this
audit recommendation and requests closure of Audit Recommendation No. 4 upon report
issuance.

Recommendation No. 5: We recommend that USAID/Lebanon remind implementers, in
writing, of the requirement to conduct and submit OMB Circular A-133 audit reports to the
Federal Audit Clearinghouse.



                                                                                              18
                                                                                      Appendix II


Mission Response: On February 21, 2012 the five implementing partners of the scholarship
programs were reminded of the requirement to conduct and submit OMB Circular A-133 audit
reports to the Federal Audit Clearinghouse (Attachments H). Moreover, On April 5, 2012, the
remaining implementing partners were reminded of the requirement to conduct and submit OMB
Circular A-133 audit reports to the Federal Audit Clearinghouse (Attachment I).

Based on the above, the Mission believes a management decision has been reached on this
audit recommendation and requests closure of Audit Recommendation No. 5 upon report
issuance.

Recommendation No. 6: We recommend that USAID/Lebanon make a written determination
on whether Haigazian University should refund the unsupported costs of $2,400.

Mission Response: On February 24 and April 10, 2012 Haigazian University provided
supportive documentation on the use of funds (Attachment J). On April 11, 2012
USAID/Lebanon, based on these supportive documents and discussion with the AO, made a
determination that funds were used under an allowable expenditure, namely scholars’ stipends.
As such, the $2,400 oversight was corrected, and Haigazian should not refund this amount
(Attachment K).

Based on the above, the Mission believes a management decision has been reached on this
audit recommendation and requests closure of Audit Recommendation No. 6 upon report
issuance.

Recommendation No. 7: We recommend that USAID/Lebanon develop and implement
procedures to obtain written confirmation from implementers that advances are liquidated in a
timely manner.

Mission Response: USAID/Lebanon informed five partners implementing the scholarship
programs on February 21st of policies related to use of letter of credit and advances
(Attachment H). On February 22, 2012 USAID/Lebanon informed both Haigazian and LAU to
ensure that advances are liquidated in a timely manner (Attachment L and M). By April 20,
2012, USAID/Lebanon will notify all implementing partners using the LOC and the respective
AORs of the following procedures to obtain written confirmation that advances are liquidated in
a timely manner:
      Implementing partners will be requested to submit a brief quarterly confirmation, in
       addition to the SF-425, that indicates whether they requested an advance and liquidated
       the funds within the set period (7 days if more than $10,000, 30 days if less than
       $10,000).
      In parallel, the AOR will review the cash-on-hand line item in the SF-425; if any positive
       cash on hand is reported, the AOR will request confirmation by the implementing partner
       that their excess funds were liquidated in a timely manner.
      Implementing partners will have to submit, for years when they spend more than
       $500,000 in Federal funds if they are a US organization, an independent audit report that
       complies with OMB circular A-133. The audit will look at compliance matters including
       the usage of the LOC.

Target date for completion: April 30, 2012.




                                                                                                19
                                                  Appendix II



Attachments A and B:     Recommendation No. 1

Attachment C, D and E:   Recommendation No. 2

Attachment F and G:      Recommendation No. 3

Attachment H and I:      Recommendation No. 4

Attachment H and I:      Recommendation No. 5

Attachment J and K:      Recommendation No. 6

Attachment H, L and M:   Recommendation No. 7 





                                                          20
                                                                                   Appendix III


                              Average Student Costs and Majors


         Average Cost per Student for Fall 2011 Semester, as of February 2012
                                     (Unaudited)

                                       Haigazian University    Lebanese American
                                               ($)                 University*
                                                                       ($)
          Average tuition                      4,080                  6,510
          Housing                              2,412                  1,575
          Stipend                              1,250                  2,000
          Food                                 2,250                  N/A**
          Books                                  350                     300
          Insurance                              107                     245
          Total                               10,449                 10,630
         Source: RIG/Cairo review of information from USAID/Lebanon.

         * Costs are the same at the Beirut and Byblos campuses.
         ** Food costs are included the stipend.

                      USAP I Student Majors, as of Program’s Start
                                     (Unaudited)

 Major                      Haigazian University        Lebanese American University
                                                        Beirut             Byblos
 Biology                          10                      -
 Business                         12                      3                   6
 Civil engineering                 -                      -                   5
 Communication arts                -                      5                   1
 Computer                          -                      -                   6
 engineering
 Computer science                  8                      4                    1
 Education                         1                      4                    -
 Electrical engineering            -                      -                    1
 English literature                1                      -                    -
 Hospitality                       2                      -                    -
 management
 Mathematics                       7
 Mechanical                        -                      -                    4
 engineering
 Medical lab sciences             22
 Nursing                           -                      -                    4
 Nutrition sciences and            1                      4                    4
 dietetics
 Psychology                        1                      -                    -
Source: RIG/Cairo review of implementer documents.




                                                                                            21
                                                                                 Appendix IV


                         Program Applicants and Selected Students

 District                   Number of applicants                   Number selected
                        Total    Haigazian       LAU       Total    Haigazian        LAU
 Akkar                    58            11            47     3           1            2
 Aley                     56            33            23    11           7             4
 Baabda                   53            33            20    12           9            3
 Baalbeck                 49            30            19     7           4            3
 Batroun                  14             4            10     1           0            1
 Becharreh                 7             3             4     2           0            2
 Beirut                   71            44            27    12          10            2
 Bint Jbeil               19             4            15     2           1            1
 Chouf                    26            20            6      4           3            1
 Hasbaya                  12             7            5      3           1            2
 Hermel                   12            11            1      0           0            0
 Jbeil                    15             5            10     4           1            3
 Jezzine                   7             4            3      1           0            1
 Keserwan                 24            10            14     2           1            1
 Koura                    12             2            10     2           0            2
 Marjeyoun                13             5            8      1           1            0
 Metn                     29            14            15     8           3            5
 Minieh/Dinneih           46            11           35      3           1            2
 Nabatieh                 19            16             3     4           3             1
 Rashaya                  13             9            4      2           2            0
 Saida                    26            20            6      7           5            2
 Sour/Tyre                48            18            30     7           3            4
 Tripoli                  53            17            36     5           3            2
 West Bekaa               14            10             4     6           3            3
 Zahle                    28            11            17     5           2            3
 Zgharta                   25            11           14     3           1            2
 Total                   749            363          386   117          65            52
Source: RIG/Cairo review of implementer documents.




                                                                                           22
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
